                   Report on Application of Agreed Upon
                Procedures – Quick Closeout for Contract
             Number TIRNO-95-D-00061, Delivery Orders 0009,
             0010, 0016, 0019, 0023, 0024, 0026, 0027, and 0029

                                   July 2004

                     Reference Number: 2004-1C-114




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                             July 1, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Report on Application of Agreed Upon Procedures – Quick
                             Closeout for Contract Number TIRNO-95-D-00061, Delivery
                             Orders 0009, 0010, 0016, 0019, 0023, 0024, 0026, 0027, and
                             0029 (Audit #20041C0231)


       In response to your request, the Defense Contract Audit Agency (DCAA) applied agreed
       upon procedures to evaluate direct costs and associated indirect expenses claimed by
       the contractor in final voucher numbers 7, 16, 16, 28, 25, 29, 18, 14, and 13,
       respectively, issued under contract number TIRNO-95-D-00061, delivery order numbers
       0009, 0010, 0016, 0019, 0023, 0024, 0026, 0027, and 0029. The purpose of the
       engagement was to assist in closing out the contract delivery orders using
       administrative quick closeout procedures under the Federal Acquisition Regulation,
       Part 42. The report pertains only to the performance of agreed upon procedures to
       evaluate direct costs and associated indirect expenses claimed. The DCAA did not
       perform an examination and, therefore, does not express an opinion.
       The DCAA considers the Fiscal Year (FY) 2002 submitted rates acceptable for quick
       closeout. The DCAA indicated that the claimed direct costs and indirect expenses for
       FYs 1997 through 2000 have not been examined with specific tests concerning Internal
       Revenue Service contractual requirements and regulations and are subject to your
       determination. The claimed direct costs have been verified to incurred cost schedules
       and supporting cost records and claimed indirect expenses are based on application of
       established final rates to associated base costs. The DCAA also indicated that claimed
       costs of $30,298 for FY 2002, which have been verified to the contractor’s cost records
       and final rate submittal, are subject to your determination.
                                           2




The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
